<html>
<title> - THE PROMISE OF THE TAIWAN RELATIONS ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                THE PROMISE OF THE TAIWAN RELATIONS ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 14, 2014

                               __________

                           Serial No. 113-135

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

87-140PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Kin Moy, Deputy Assistant Secretary, Bureau of East Asian and 
  Pacific Affairs, U.S. Department of State......................     5

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Kin Moy: Prepared statement..................................     8

                                APPENDIX

Hearing notice...................................................    32
Hearing minutes..................................................    33
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    35
The Honorable Lois Frankel, a Representative in Congress from the 
  State of Florida: Prepared statement...........................    36

 
                THE PROMISE OF THE TAIWAN RELATIONS ACT

                              ----------                              


                         FRIDAY, MARCH 14, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:45 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. I am going 
to ask all members to take their seats.
    This hearing is on the promise of the Taiwan Relations Act. 
Let me just say it has been 35 years, and for that period of 
time the Taiwan Relations Act has served as the legal framework 
governing the important relationship between the United States 
of America and the Republic of China (Taiwan). Since the act 
came into force in 1979, there have been few other pieces of 
foreign policy legislation as consequential as the TRA. Indeed, 
it is the steadfast support of the United States Congress that 
has helped Taiwan become what it is today: A thriving, modern 
society that strongly supports human rights, strongly supports 
the rule of law, free markets, and is democratic.
    The purpose of today's hearing is to consider whether the 
administration is doing enough to fulfill the larger promise of 
the Taiwan Relations Act. America's support for Taiwan is now 
more important than ever, and it is vital that we speak with 
one voice when it comes to our support for Taiwan.
    Strengthening the U.S. relationship with Taiwan is one of 
the committee's top legislative priorities. In fact, I have led 
two bipartisan delegations to Taipei in the last 13 months. 
Last year, our delegation trip included a visit to Taiwan's 
World War II-era submarines based near Kaohsiung. And just last 
month, a committee delegation of eight Members of Congress 
traveled to Tainan to see firsthand the fleet of fighter jets 
that serves as the backbone of the Taiwanese Air Force. The 
fact that the first batch of these jets entered into service in 
1965 is a stark reminder that Taiwan needs continuous U.S. 
support in order to maintain a credible deterrence across the 
Taiwan Strait. On this front, I reluctantly submit that we are 
not doing enough to meet the spirit of the Taiwan Relations 
Act. We need to do more here in the United States.
    And just as necessary as defense sales are to Taiwan, it is 
equally important that the U.S. actively support Taiwan's 
efforts to maintain and expand its diplomatic space. When it 
comes to matters of public safety or public health, the U.S. 
must do its utmost to ensure that Taiwan has a seat at the 
table. For this reason, I authored legislation that was signed 
into law to help Taiwan participate in the International Civil 
Aviation Organization last year. Taiwan's absence from ICAO 
prevents it from obtaining air safety information in realtime. 
The recent disappearance of the Malaysian aircraft highlights 
the importance of cooperation in the aviation field. As a 
result of my legislation, Taiwan has finally been able to have 
a seat at ICAO for the first time since 1976.
    Taiwan's participation in the Trans-Pacific Partnership 
Free Trade Agreement is an important opportunity that we must 
not overlook. By working to include Taiwan in a high-quality 
multilateral trade agreement, the U.S. would be helping to 
preserve Taiwan's ability to do business internationally. The 
events unfolding in the Ukraine remind us of the strategic 
weakness of relying on one major trading partner.
    I understand that the Government of Taiwan will soon 
announce its intention to seek membership in TPP. As chairman 
of this committee, I strongly urge the administration to 
support Taiwan's inclusion in TPP. American consumers and 
exporters would benefit.
    The story of Taiwan is really a story about transformation. 
From the grinding poverty of the post-war era to a military 
dictatorship to a thriving multiparty democracy, the investment 
that the American people made in Taiwan has more than paid off. 
Today Taiwan is a beacon of democracy in a region of the world 
that still yearns for freedom. The good people of Taiwan have 
also been a part of America's own success story, with many 
Taiwanese Americans participating as leaders in business and 
government and in their own communities.
    As we acknowledge the 35th anniversary of the Taiwan 
Relations Act, let us come together to support and strengthen 
the U.S.-Taiwan relationship. Our actions will directly impact 
the future of Taiwan and our strategic and economic standing in 
the critical Asia-Pacific region.
    Let me turn to Mr. Eliot Engel of New York for his opening 
remarks, our ranking member of the committee.
    Mr. Engel. Chairman Royce, thank you for calling this 
hearing on the Taiwan Relations Act. I am a big supporter of 
Taiwan and have traveled there many times, most recently with 
you last year on your first codel as chairman. I want to agree 
with everything you just said about Taiwan.
    Next month marks the 35th anniversary of the Taiwan 
Relations Act. The act, passed in 1979, is the cornerstone of 
the relationship between our two nations. It has been 
instrumental in maintaining peace and security across the 
Taiwan Strait and in East Asia and serves as the official basis 
for friendship and cooperation between the United States and 
Taiwan. I am proud to be a lead sponsor with you, Mr. Chairman, 
on H. Res. 494, which reaffirms the importance and relevance of 
the Taiwan Relations Act 3 decades after its adoption.
    Taiwan is a flourishing, multiparty democracy of over 20 
million people with a vibrant free-market economy. It is a 
leading trade partner of the United States, alongside much 
bigger countries like Brazil and India. Over the past 60 years, 
the U.S.-Taiwan relationship has undergone dramatic changes, 
but Taiwan's development into a robust and lively democracy 
underpins the strong U.S.-Taiwan friendship we enjoy today.
    Our relationship with Taiwan was initially defined by a 
shared strategic purpose of stopping the spread of communism in 
Asia. With the end of the cold war, Taiwan's political 
evolution from authoritarianism to one of the strongest 
democratic systems in Asia has transformed the U.S.-Taiwan 
relationship from one based solely on shared interests to one 
based on shared values.
    One of the main obligations of the United States under the 
Taiwan Relations Act is to make available to Taiwan defensive 
arms so that Taiwan is able to maintain a sufficient self-
defense capability. Despite improvement on the political and 
economic ties between Taiwan and mainland China, Beijing's 
military buildup opposite Taiwan is continuing, and the balance 
of cross-strait military forces continues to shift in China's 
favor. I encourage the administration to work closely with 
Congress in meeting our obligations under the Taiwan Relations 
Act and to provide Taiwan with the defensive weapons it 
requires.
    In that light, I am very concerned about the decision of 
the U.S. Air Force not to fund the so-called CAPES program in 
next year's budget that would have upgraded the avionic system 
of F-16 fighter jets, including about 150 of Taiwan's F-16s. 
The Taiwan Defense Ministry now faces a tough decision on how 
to move forward with the upgrade of its fighters at a 
reasonable cost, an upgrade that it desperately needs. I hope 
our witness will be able to shed some light on this issue and 
on the way forward for Taiwan and the United States.
    Taiwan's political, economic, and social transformation 
over the past 60 years has demonstrated that a state can be 
modern, democratic, and thoroughly Chinese. Taiwan's example is 
an inspiration for other countries in Asia and throughout the 
world that linger under the control of one person or one party. 
The fact that Taiwan has now held five direct Presidential 
elections is a clear sign of the political maturity of the 
Taiwanese people and, frankly, a signal to Beijing that any 
change in relations between Taiwan and China cannot be imposed 
by the mainland.
    For many years, I have been a staunch supporter of the 
people of Taiwan, and I will continue to lead efforts here in 
Congress to demonstrate continued U.S. support for Taiwan. I 
think it is a moral obligation for the United States to defend 
Taiwan and to be supportive of Taiwan and to stand with Taiwan. 
So I look forward to the testimony of our witness this morning 
and hearing his view on how to further strengthen ties between 
the United States and Taiwan.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    We will have two more opening statements: 2 minutes from 
Mr. Chabot of Ohio, chairman of the Asia Subcommittee, and then 
2 minutes from Mr. Brad Sherman of California.
    Mr. Chabot. Thank you, Mr. Chairman, for calling this 
important hearing.
    I was pleased to join you in traveling to Taiwan just a 
couple of weeks ago, and I think we had a productive trip and 
certainly had the opportunity to meet with a host of top Taiwan 
officials, especially President Ma. I know my colleagues on the 
codel were very happy with our warm reception and the many 
courtesies extended to us by our hosts, so we appreciate that.
    As one of the original founding co-chairs of the 
Congressional Taiwan Caucus, I am, of course, a strong 
supporter of a strong U.S.-Taiwan alliance. Taiwan is a 
democracy. It is a loyal friend and ally, and it deserves to be 
treated as such by the U.S. Government.
    As we commemorate the 35th anniversary of the Taiwan 
Relations Act this year, it is only appropriate that we strive 
to move even closer to the policy objectives set out in that 
landmark piece of legislation, chief among which is the 
principle that our diplomatic relationship with the PRC, the 
People's Republic of China, is premised on the expectation that 
the future of Taiwan will be determined by peaceful means.
    For over 3 decades, the Taiwan Relations Act has served as 
the cornerstone of U.S.-Taiwan relations. Along with President 
Reagan's six assurances in 1979, the Taiwan Relations Act has 
played an indispensable role in the maintenance of peace and 
security in the East Asia-Pacific region.
    Taiwan has come a long way since 1979. It has conducted 
direct Presidential elections, something that would have been 
unthinkable back in 1979. These open and vigorously contested 
electoral campaigns testify to the values of pluralism, 
transparency, and the rule of law shared by our two nations and 
deeply rooted in Taiwanese society.
    At the same time, the threat of military aggression posed 
by the PRC to Taiwan has grown exponentially over recent years. 
When I first came to Congress back in 1995, China had perhaps a 
couple of hundred missiles pointed at Taiwan. Since then, it 
grew to hundreds of them and is now at 1,600 short- and mid-
range ballistic missiles.
    I look forward to hearing from our witness this morning on 
the continued relationship between the United States and 
Taiwan, which is very important to both countries.
    Thank you.
    Chairman Royce. Mr. Sherman?
    Mr. Sherman. Yes. I want to commend the chairman for 
putting together and leading an outstanding codel to Asia, 
particularly to Taiwan. I see Mr. Weber, Mr. Messer, and of 
course Mr. Chabot was on that codel.
    And I remember Mr. Chabot leading us in our effort to seek 
the release on humanitarian parole of former President Chen. I 
don't think we can conclude one way or the other about the 
judicial determination there, but, certainly, given his poor 
health, given his service to the country, and given the 
unifying effect this would have, I would hope that we would 
continue to press for the humanitarian treatment and release of 
Mr. Chen.
    I think that it is important that we provide Taiwan the 
tools to defend itself, but Taiwan needs to act, as well. 
Taiwan spends less than $11 billion on its defense, less than 
one-fifth per capita what we in America do. And God blessed us 
with the Pacific Ocean separating us from China; Taiwan has 
only the Taiwan Strait. On a percentage-of-GDP basis, Taiwan 
spends roughly half what we do. So we should be willing to sell 
them the tools, and they should be willing to spend the money 
to buy those tools. I am also concerned with the reduction in 
the reserve requirements imposed on young people in Taiwan for 
military service.
    Finally, I do disagree, only slightly, with the chairman. I 
do want to see Taiwan involved in the trade negotiations so 
long as America is out of those negotiations until such time as 
we revamp our trade policy, which has given us the largest 
trade deficit in the history of life on the planet.
    I yield back.
    Chairman Royce. This morning, we are pleased to be joined 
by Mr. Kin Moy, Deputy Assistant Secretary for East Asian and 
Pacific Affairs.
    A career member of the Senior Foreign Service, Mr. Moy 
previously served as Deputy Executive Secretary in the office 
of Secretary of State Clinton. He was director of the Executive 
Secretariat staff and Deputy Director of the Office of Maritime 
Southeast Asia.
    We are going to ask him to summarize his prepared 
statement, if he would.
    And we will remind members that you will all have 5 
calendar days to submit statements or questions or any 
extraneous material you want to put into the record for this 
hearing.
    And so, Mr. Moy, you have the floor.

  STATEMENT OF KIN MOY, DEPUTY ASSISTANT SECRETARY, BUREAU OF 
    EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Moy. Thank you so much, Mr. Chairman and members of the 
committee. I am grateful to appear today to share news about 
the strength, substance, and success of our unofficial U.S.-
Taiwan relationship.
    I wish to thank you, Mr. Chairman, for your leadership and 
strong interest in regional prosperity and stability. Your 
commitment was evidenced by the large congressional delegation 
you led last month to Taiwan, Japan, and South Korea.
    As you noted earlier in your remarks, April 10th marks the 
35th anniversary of the Taiwan Relations Act. The resilience 
and development of our robust relations with Taiwan over the 
past 35 years have been greatly fostered by the framework that 
Congress established in the TRA. The U.S.-Taiwan relationship 
is grounded in history, shared values, and our common 
commitment to democracy and human rights.
    Maintaining and deepening our strong relations with Taiwan 
is an important part of the U.S. rebalance to the Asia-Pacific 
region. Through the American Institute in Taiwan, we work 
closely with Taiwan authorities on a wide rage of issues. In 
security, maintenance of peace across the Taiwan Strait is 
crucial to stability and prosperity throughout the Asia-
Pacific. The Obama administration has notified Congress of over 
$12 billion worth of arms sales to Taiwan. This is a tangible 
sign of the seriousness with which we regard Taiwan's security.
    We encourage Taiwan to adopt innovative approaches to 
maintain a credible self-defense capacity on an austere defense 
budget in order to effectively deter coercion or aggression. In 
a region that is experiencing tensions, the United States 
appreciates Taiwan's cooperative efforts to peacefully resolve 
disputes and share resources.
    In the area of the economy and economic engagement, in 
2013, Taiwan was the 16th-largest export market for U.S. goods 
and the 8th-largest export market for U.S. agriculture, fish, 
and forestry products. In 2012, direct investment from Taiwan 
to the United States stood at approximately $7.9 billion.
    Our commercial relationship with the people of Taiwan is 
vibrant and continues to grow. Last year, we were pleased to 
host two large delegations of Taiwan business leaders, first at 
the SelectUSA summit at the end of October and again in mid-
November during a visit of Taiwan's CEOs, led by former Vice 
President Vincent Siew. The Siew delegation brought news of 
over $2 billion in new or ongoing Taiwan manufacturing 
investments in the United States.
    In March 2013, we restarted our engagement with Taiwan 
under our Trade and Investment Framework Agreement, otherwise 
known as TIFA, after a 6-year hiatus. We have taken note of 
Taiwan's intention to formulate new economic reforms to 
demonstrate its willingness and capability of joining in 
regional economic integration initiatives. The United States 
will continue to encourage Taiwan to further liberalize its 
trade and investment measures.
    And, as you noted, Mr. Chairman, the area of concern also 
to us is Taiwan's international space. As a top-20 world 
economy and a full member of the WTO and APEC, Taiwan plays a 
constructive role in the Asia-Pacific region and worldwide. 
Taiwan participates in about 60 international organizations as 
well as hundreds of international nongovernment organizations.
    The United States supports Taiwan's membership in 
international organizations that do not require statehood for 
membership, and we support Taiwan's meaningful participation in 
other international organizations. We are pleased that since 
2009 Taiwan has participated every year in the World Health 
Assembly as an observer. We welcome Taiwan's participation at 
the International Civil Aviation Organization, otherwise know 
as ICAO--that ICAO assembly in Montreal in 2013 as guests of 
the ICAO Council president. And we support Taiwan's expanded 
participation in the future.
    We also encourage the U.N., U.N. System agencies, and other 
international organizations to increase Taiwan participation in 
technical or expert meetings. Taiwan's role as a responsible 
player in the global community has been well-demonstrated by 
its disaster relief efforts in the region. Taiwan was a quick 
and generous donor of supplies and funding after the 2011 
triple disaster in Japan and after last November's Typhoon 
Haiyan off the Philippines. In short, Taiwan, a stable and 
capable friend in the region, contributes to peace and 
security.
    Finally, Mr. Chairman and members of the committee, I thank 
you again for the opportunity to appear today to highlight the 
strength and durability of ties between the people of the 
United States and the people of Taiwan and to underscore the 
substance and success of our cooperative efforts within the 
context of unofficial relations.
    Taiwan has earned a respected place in the world. Every 
society wishes dignity for itself, and people on Taiwan are no 
exception. Thanks to the Taiwan Relations Act, people of 
goodwill in the United States and on Taiwan have a firm 
foundation on which to strengthen, or further strengthen, our 
robust relationship.
    With that, thank you so much, and I look forward to 
answering your questions.
    Chairman Royce. Well, I thank you, Mr. Moy.
    [The prepared statement of Mr. Moy follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. I have to tell you, there is one really 
disappointing thing to me, and that is I frequently speak to 
Assistant Secretary Danny Russel on the phone about different 
issues, and I believe he intended to be here to testify. I 
believe I talked to him twice about it. But time after time--
and this is something that the Subcommittee on Asia and the 
Pacific has talked to me about--for whatever reason, the 
administration pulls the witnesses.
    And I know it isn't a lack of engagement on the part of 
Danny Russel because we have talked to him repeatedly about 
issues. But there is something about the relationship here with 
the State Department, when Eliot Engel and I make these 
requests, or Subcommittee Chairman Chabot on the Asia and the 
Pacific Subcommittee with Mr. Faleomavaega, for some reason the 
witnesses are always cancelled.
    And what we want to talk about is Asia policy. And, as far 
as I know, Danny Russel and I are in concurrence on a lot of 
these issues, but I don't know about further up in the 
administration. I am going to ask you a question now, for 
example.
    As I mentioned in my opening statement, I strongly believe 
that Taiwan should be included in the Trans-Pacific 
Partnership. Does the U.S. Government support Taiwan's 
inclusion in the TPP? That is my question for you. Can you 
speak, you know, on behalf of the administration here?
    Mr. Moy. Thank you very much. I do appreciate your 
comments. And I did have a chance to speak to Danny Russel 
before coming up, and he wanted me to pass on his regrets and 
also his appreciation for your setting up this meeting.
    I can say that, from our part, I don't think that there is 
anything preventing us from talking about Taiwan issues here--
--
    Chairman Royce. Well, it is not just Taiwan. If 
Subcommittee Chairman Chabot wasn't equally concerned about 
this, equally disappointed, as he brought up with the Secretary 
of State here yesterday, I probably wouldn't bring it up. But 
it is just a pattern that, at this point. To us, the Asia-
Pacific region is vitally important. We spend a lot of time on 
it, on this issue, and we want the administration to be equally 
engaged on this. And so, if you will carry that information 
back.
    Mr. Moy. I will.
    Chairman Royce. But, again, particularly given Taiwan's 
almost singular reliance on cross-Strait trade, does the U.S. 
Government support Taiwan's inclusion in the TPP?
    Mr. Moy. Well, thank you. And I will relay those comments 
to my colleagues. It certainly isn't a statement about our 
commitment to very strong U.S.-Taiwan on official relations. In 
fact, I think that we have a very strong record, and I think we 
have a very good story to tell about that.
    With regard to your question about TPP, we welcome Taiwan's 
interest in it. And we have heard from them very recently about 
their interest.
    We also welcome--and I think that you met with President Ma 
Ying-jeou on your recent congressional delegation. But we 
welcome his steps to liberalize Taiwan's economy.
    I think that as you know, we are in ongoing negotiations on 
TPP, and I think what I can say about this is that, you know, 
perhaps it is best if we move toward conclusion on those 
negotiations before we discuss additional membership.
    But I think that, you know, we are taking a step-by-step 
approach here. We have heard from Taiwan, as well as others, 
about interest in TPP, and we certainly, again, welcome that 
interest. And we are willing to definitely consider, along with 
some countries that have approached us most recently--we are 
willing to discuss TPP in the future.
    Chairman Royce. Well, one of the most important aspects of 
TPP beyond the important trade-related benefits is that the 
grouping will help shape East Asia's multilateral political 
architecture by firmly anchoring nation-states in a binding 
legal agreement. I want to make certain that Taiwan is part of 
that agreement.
    I think it is critical to Taiwan that it be included, not 
only because it is in one of the world's top-20 economies, but 
also because it is in our own strategic interest. And adding 
Taiwan to TPP will allow it greater access to other trade 
agreements, with Europe for example. It is going to serve as a 
strong symbol of American support, and that is why I strongly 
support this.
    There was another issue I wanted to just briefly talk to 
you about, and that is the F-16 upgrades. Does the United 
States remain fully committed to Taiwan's F-16 upgrade program?
    Mr. Moy. We do.
    Just back on TPP, what we would encourage Taiwan to do--as 
you know, TPP is a consensus-type membership, and so we would 
encourage Taiwan to raise its interest in membership with all 
of the other parties, as well.
    Now, absolutely. I know that Congressman Engel also raised 
his concerns about the issue of the CAPES program. So, as I 
understand, the U.S. Air Force funding for the CAPES program 
will continue through 2014.
    The U.S. Air Force F-16 program office has determined that 
the lack of U.S. Air Force participation beyond Fiscal Year 
2014 will not have a significant impact on the Taiwan program 
and that all funding can be covered in Taiwan's current letter 
of offer and acceptance. As a result, potential cuts in USAF, 
or U.S. Air Force, funding for the CAPES program will not 
negatively impact the Taiwan F-16 retrofit program.
    Mr. Chairman, we certainly are committed to the F-16 
retrofit program. I think that we have demonstrated that, and 
we have certainly had discussions with Taiwan in that regard.
    Chairman Royce. It is discouraging to me and to others 
because, of course, many of us here, including myself, wrote 
you, talked to the administration, about the sale of new F-16s. 
So now we are talking about retrofitting. We want to make 
certain that this goes forward. I would suggest the sale of new 
F-16s would be an easy solution to this. I strongly support 
this.
    But my time has expired. I had best go to Mr. Eliot Engel 
of New York.
    Mr. Engel. Well, Mr. Chairman, thank you. Let me pick up 
where you left off.
    And, of course, in my opening remarks, I talked about the 
F-16s and the CAPES program, and I am really very, very 
concerned about it.
    And, you know, the Taiwan Defense Ministry now faces a 
tough decision on how to move forward with the upgrade of its 
fighters at a reasonable cost. And this is an upgrade that it 
desperately needs. So, you know, maybe they will continue with 
it, maybe they won't.
    I am concerned about Taiwan being able to maintain its 
fleet of F-16s. And certainly the decision that we apparently 
made, the U.S. Air Force made, not to fund the CAPES program 
was a poor decision. It just makes no sense to me whatsoever.
    And, you know, when it comes to Taiwan, there is this sort 
of undercurrent that we feel over time where, you know, we bend 
over backwards to try not to upset the sensitivities of the 
Beijing regime. And, frankly, it irks me. Not that I don't wish 
to have good relations with Beijing, because we should, but not 
at the expense of our relations with Taiwan or not at the 
expense of our friendship with Taiwan.
    And so it really just irritates me that we make a decision 
like this, which has an adverse impact on our friend Taiwan and 
doesn't seem to be for any good policy purpose other than to 
placate Beijing.
    So the chairman and I have said the same thing. We haven't 
even really discussed this. We have both independently come up 
with this because we are just very disturbed about it.
    Mr. Moy. Well, thank you very much. I regret I am not able 
to speak for my colleagues in the Air Force on that. I do 
understand your concerns, and I will relay those to my 
colleagues.
    But what I do want to do is to strongly emphasize that all 
our improvement in bilateral relations with the PRC does not 
come at the expense of our relationship with Taiwan. In fact, I 
think that our relationship with Taiwan right now is as strong 
as it ever has been. And we have oftentimes emphasized that 
point, that certainly we have an interest in strengthening 
relations with Beijing, but absolutely not at the expense of 
our very strong relationship with Taiwan and the people of 
Taiwan.
    Mr. Engel. Well, I certainly hope that that continues to be 
the case, because sometimes it appears that that is not really 
the case. But I certainly take your word and, you know, want it 
duly noted that we on this committee feel very strongly about 
it.
    Let me ask you this, Mr. Moy: What steps is the 
administration taking to ensure that Taiwan is accorded an 
appropriate level of participation in international 
organizations such as the World Health Organization and the 
International Civil Aviation Organization?
    Mr. Moy. Yeah, thank you very much.
    As I stated in my introductory remarks, it is an area that 
is of primary importance to us. It is a priority that the 
expertise from Taiwan is recognized. There is so much 
professional expertise there, so much knowledge in Taiwan, that 
it deserves to be recognized in the international 
organizations. This is not just a matter of knowledge, however. 
It is a matter of dignity, too. And we take it very seriously.
    So we do review different opportunities to expand. I think 
just one that the chairman had noted, and you may have also as 
well earlier, was the International Civil Aviation Organization 
(ICAO). And I think that, working together with a number of 
other countries, we have supported not just Taiwan's, sort of, 
guest participation, as they appeared as a guest last year at 
the assembly, but more frequent interaction with ICAO because 
there is a lot of technical expertise they can bring to those 
types of meetings.
    But, as you noted, World Health Assembly; we also look at 
opportunities working on climate change issues. Various types 
of international organizations we often consult, because there 
oftentimes are issues where Taiwan has a unique ability to 
provide knowledge, recommendations, just imaginative ideas 
beyond just their technical expertise. And we want to take 
advantage of that, and we will continue to do that.
    Mr. Engel. Thank you.
    Let me ask you this final question. Is the administration 
providing Taiwan the defensive weapons it requires, as required 
by the Taiwan Relations Act? Are there defensive weapons 
systems that Taiwan has requested but we have decided not to 
provide? And if so, what are they?
    Mr. Moy. I am not aware of such systems, but we are 
absolutely in compliance with the Taiwan Relations Act in 
making available to Taiwan defense articles and services that 
are necessary to enable Taiwan to maintain sufficient self-
defense capability.
    We will continue to be in compliance with that. We often 
review--``we'' meaning the U.S. Government--often review their 
defensive capabilities, and I think that we have a very strong 
record in this administration of providing that.
    Mr. Engel. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    Ms. Ileana Ros-Lehtinen from Florida, our chairman 
emeritus.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you to you and to our ranking member for holding this important 
hearing, because relations between the U.S. and Taiwan are at a 
critical juncture.
    I am concerned, as all of us are, about China's continued 
rise and aggression in the East and South China Seas and the 
feeble response by our State Department to North Korean missile 
launches, which are a clear violation of international 
sanctions. The people of Taiwan have every reason to fear 
developments in the West Pacific, to worry about the future of 
their land, and to question both the resolve and the commitment 
of the United States. How tragic.
    And as we approach this 35th anniversary of the very 
important and essential Taiwan Relations Act anniversary, we 
remember that this crucial legislation forms the cornerstone of 
U.S.-Taiwan relations. It is the foundation of policy that has 
been and will be and will remain forevermore the anchor of 
peace and security in the West Pacific.
    But as we reflect on the promise of the Taiwan Relations 
Act on this 35th anniversary, we must also gauge the 
fulfillment of its specific policies and reexamine the lack of 
strategic vision in this part of the world and talk about where 
we go from here.
    As we watch China again increase its defense budget by 
double digits, begin construction on a second aircraft carrier, 
establish an air defense identification zone in the East China 
Sea, and continue its aggression over the Senkaku Islands, 
there is no better time to reaffirm, to clarify, and to 
strengthen relations with our democratic ally and our strongest 
friend, Taiwan.
    But instead of recommitting to Taiwan, we continue to hear 
our State Department speak in half-truths, invent a laundry 
list of items that hinder our relations with Taiwan and our 
Pacific allies, and do everything it can to not provoke China. 
And that, sadly, seems to be our policy with Taiwan: Don't 
antagonize China.
    The Taiwan Policy Act, introduced by my colleagues, the 
chairs of the Taiwan Caucus, and me, passed out of this 
committee last August. The bill aims to rectify these problems 
by advancing the sale of essential defense articles. And I 
would like to point out that the new sales of F-16s is included 
in this bill. It encourages high-level visits between the U.S. 
And Taiwan officials. It promotes bilateral trade agreements.
    What is the administration's policy on the Taiwan Policy 
Act?
    Secondly, how does the administration plan to 
counterbalance China's power when we don't even commit to our 
democratic ally Taiwan and, by extension, any of our other 
regional allies?
    And, thirdly, what is the administration going to do to 
develop Taiwan's economic bond with the United States, its 
independence, strengthen our economic bonds? What is the State 
Department's policy, the Obama administration's policy on 
Taiwan, other than don't make China mad?
    Mr. Moy. Thank you very much.
    I don't think that our Taiwan policy is founded on the 
principle of let's not make China mad. In fact, I think that if 
you look at the record, we have done an enormous amount to 
expand our relationship, strengthen it in all areas. It is not 
just the security aspects of it; it is the economic side. It is 
also the people-to-people side, as well.
    As you may know, with the help of others, we granted to 
Taiwan----
    Ms. Ros-Lehtinen. If you----
    Mr. Moy. I am sorry.
    Ms. Ros-Lehtinen. I apologize, but the time is so limited.
    Mr. Moy. Oh, of course.
    Ms. Ros-Lehtinen. I only have 35 seconds.
    Mr. Moy. Yeah, yeah, yeah.
    Ms. Ros-Lehtinen. Have you read the Taiwan Policy Act that 
we have filed? I would like to give that to you and have an 
administration policy on it. And how are we counterbalancing 
China's power in committing to Taiwan?
    Mr. Moy. Thank you very much.
    I am, of course, very pleased to take a look with my 
colleagues at the legislation, but I think, again, we have a 
very strong record of support for Taiwan through our unofficial 
relations and in accordance with the Taiwan Relations Act.
    As I noted, the 35th anniversary is a reason to celebrate. 
It is a reason to also commemorate just how far we have come, 
what we need to do in the future. We can still, you know, 
refine, enhance----
    Ms. Ros-Lehtinen. Excuse me, I appreciate that.
    And I know my time is up, Mr. Chairman.
    But I don't believe that the people of Taiwan share those 
sentiments. I don't think that they see us as upholding the 
principles that are enshrined in the cornerstone of our U.S. 
Foreign policy related to Taiwan, which is the Taiwan Relations 
Act. It promises a lot, and I think that the people of Taiwan 
would think that we haven't really fulfilled those missions.
    Do you think that we have?
    Mr. Moy. I do believe--I mean, I haven't seen any recent 
polls, but I would imagine that the people on Taiwan regard the 
U.S. relationship, if not as the most important relationship 
for Taiwan, it has to be right up there.
    They are good friends of ours. They think like we do. Their 
values we share. I would think that they are very supportive of 
the things that we have done.
    Ms. Ros-Lehtinen. Do you think that we need to do more?
    Mr. Moy. We are always looking for ways to strengthen 
relations. Just as we are looking in the larger context in our 
rebalanced Asia, we want to strengthen our relationships with 
our allies. We want to strengthen our relationships----
    Ms. Ros-Lehtinen. And new sales of new F-16s and higher-
technology planes for defensive needs of Taiwan?
    Mr. Moy. Again, we have had a very strong record of 
providing defense articles to Taiwan. And, you know, no 
decision----
    Ms. Ros-Lehtinen. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Well, thank you.
    We go now to Mr. Brad Sherman, California.
    Mr. Sherman. Thank you.
    One issue we brought up with President Ma was the 
incarceration of former President Chen. One of the red flags 
that a democracy isn't working real well is that the former 
President is in jail. That is true in just about any country.
    What are we doing to seek either the humane treatment or 
the humanitarian parole of former President Chen?
    Mr. Moy. Thanks.
    As you know, the former President was convicted on 
corruption charges after his, you know, 2000 and 2008 
Presidency, including the transfer of, you know, Presidential 
office funds to private Swiss bank accounts. We believe that 
his conviction was in a system that is fair, impartial, and 
transparent. Rule of law exists in Taiwan.
    In regard to your specific question, though, certainly, you 
know, we have heard varying accounts of the status of his 
health, and certainly we would want Taiwan to, you know, review 
his health condition. I am not aware of any--or I don't have an 
update on----
    Mr. Sherman. Let me go on to the next question.
    Taiwan is spending only half as much per average GDP on 
defense as we are. I don't mind good to my district and saying, 
``Let's pay taxes,'' but Taiwan is on the front lines. Now, I 
am sure you have had discussions, and they say they can't 
afford to spend any more. And we are very concerned about the 
maintenance of their F-16 aircraft. The United States taxpayer 
may not be able to pay for that.
    Taiwan has only a 5 percent value-added tax. Has the United 
States pushed Taiwan not just to spend more on its defense but, 
if they say they don't have the money, to make its value-added 
tax or other taxes at the rate of our European allies, who also 
we push to pay for their own defense?
    Mr. Moy. Well, certainly on the issue of spending more, we 
have encouraged Taiwan to fulfill what it has said in the past, 
that it will spend up to 3 percent of GDP on defense. And so--
--
    Mr. Sherman. Well, why do we accept 3 percent for them and, 
including veterans' benefits, 5 percent for us?
    Mr. Moy. Well, this is what President Ma has stated in the 
past, and so we do hope that--we do understand that it is a 
different----
    Mr. Sherman. I think the best way to get the 3 percent is 
to start demanding 6 percent or insisting that a good ally that 
seeks our support, that a country that faces possible 
eradication or forced incorporation ought to be doing well more 
than the United States per capita. And I think if we start 
talking about 6 percent, we may someday see the 3 or 4 percent 
that would be a minimum.
    Finally, what are we doing to push Taiwan to adopt better 
laws against peer-to-peer Web sites for piracy of movies?
    Mr. Moy. Well, I think that this is part of our economic 
engagement with Taiwan. What we have said in the past is--and 
this is in terms of all of our dialogues--we would like to have 
a little bit more confidence, especially in areas of 
intellectual property protection----
    Mr. Sherman. But are we specifically focusing on peer-to-
peer Web sites, the lack of legislation in that area, and the 
pirating of our movies?
    Mr. Moy. Yeah, I am not aware of that specific area, but 
definitely----
    Mr. Sherman. Well, I hope that you would make that a 
specific issue.
    Mr. Moy [continuing]. Intellectual property protection is a 
priority of ours, absolutely.
    Mr. Sherman. A general statement about intellectual 
property protection won't have the specific effect, may have no 
effect, compared to the specificity. And I hope that you will 
specifically focus their attention on the peer-to-peer Web site 
piracy of our movies.
    Finally, what steps is the administration taking to make 
sure that Taiwan has appropriate participation in international 
organizations, such as the World Health Organization, ICAO, and 
the climate control--UNFCCC?
    Mr. Moy. Thanks very much.
    As I noted earlier, international space is a priority of 
ours, and we are looking for opportunities for Taiwan, you 
know, experts, professionals to shine in their fields in 
international fora. We will continue to do that. It really does 
help those organizations, it really does help the global 
community when they are able to participate.
    Mr. Sherman. Thank you.
    Chairman Royce. Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Moy, thank you for your testimony.
    Over the past few years and across two different 
administrations, we have witnessed alarming number of gushing 
statements by senior American officials on the U.S.'s ``one 
China'' policy. Last year, PLA General Chen Bingde, during a 
visit to Washington, claimed that Secretary of State Hillary 
Clinton stated that U.S. policy maintains there is only one 
China in the world and that Taiwan is part of China. Not long 
after that, Admiral Mullen said that he shared the view of a 
``peaceful reunification of China.''
    Well, let me ask you, Mr. Moy: The People's Republic of 
China, as we all know, is a dictatorship. It is a gulag state. 
And would we have wished for reunification of West Germany into 
East Germany when Honecker was ruling as a cruel dictator in 
East Germany? I think not. So I think those kinds of statements 
are not helpful.
    I do believe--and I want to ask your view on this, as to 
whether or not the time as come that the cold war relic--and I 
know all about the Shanghai Communique. I have read it. I 
actually had an argument with Li Peng once in China when we 
brought up human rights and he said the Shanghai Communique 
said nothing about human rights at all. And that is true, but 
he used that as a dodge and as a way of precluding any 
discussion on human rights.
    But shouldn't we have a ``one China, one Taiwan'' policy?
    And, secondly, if you could, the Taiwan--the act, section 
2, points out that the enactment of this act is necessary to 
help maintain peace, security, and stability in the Western 
Pacific.
    What are the consequences for the U.S. security if Taiwan 
were to come under PRC control? And do we fully realize that 
such a shift would have devastating implications for U.S. 
longstanding security partners and allies in East Asia, 
including Japan and South Korea?
    Mr. Moy. Thank you very much.
    I think I might have been in that meeting with Li Peng that 
you speak of.
    Mr. Smith. With Frank Wolf and I, you might recall.
    Mr. Moy. It was a few years ago.
    Thank you very much for your comments.
    I think what I would like to point to is most recently I 
think that you may have seen in the press that there has been 
more dialogue between the two sides of the Strait recently. The 
head of the Mainland Affairs Council from Taiwan, Wang Yu-chi, 
met with Zhang Zhijun, who is the head of their Taiwan Affairs 
Office. We have gone on record as saying that we support that 
kind of warming of ties.
    And I think one of the reasons why there has been such a 
discussion is that we have been so supportive of Taiwan, giving 
them the confidence so they can have these kinds of dialogues. 
So I think that we do have a very strong record of that. We do 
support the increased dialogue between the two sides.
    In terms of consequences, I wouldn't want to get into any 
sort of hypothetical kinds of scenarios here. I don't think 
that that is something that we view as very likely right now. 
And the----
    Mr. Smith. But have we anticipated what happens? I mean, we 
do have scenarios that we certainly consider at the Pentagon 
and at State.
    Mr. Moy. Well, you know, it is not something that is, sort 
of, a normal feature of our discussions, these types of 
hypotheticals.
    What I can say is that, you know, I heard your remarks 
about the ``one China'' policy, but this is a policy that has 
endured through many administrations. And, again, I think what 
we have done--and much of this has to do with the Taiwan 
Relations Act, but it has given Taiwan a great deal of 
confidence over the last few years to increase the kind of, you 
know, intensity of discussions with the PRC. Knowing that the 
United States is always in support is, I think, greatly 
comforting to the Taiwan side.
    Mr. Smith. But, frankly, some of our diplomats, including 
our former Ambassador, Belici, has suggested that the ambiguity 
and the statements that have been made could send the wrong 
signal to the PRC, particularly as they build up militarily in 
and around or in proximity to Taiwan.
    And, of course, with the saber-rattling that we see 
occurring in the South China Sea and an ever-expansive foreign 
policy, the ugliness toward Japan coming out of Beijing, you 
know, the useful diplomatic fiction--perhaps it was useful for 
a while--it seems to me could inadvertently lead to a 
miscalculation by Beijing about what happens if they take 
Taiwan.
    Mr. Moy. I don't think that Beijing questions U.S. resolve 
on the Taiwan issue. We continue to be extremely supportive, 
and we continue to expand, you know, our unofficial relations. 
And that, I think, does a great deal to help strengthen and to 
allow for a more, sort of, peaceful and stable environment 
across the Strait.
    Thank you so much, sir.
    Chairman Royce. Mr. Lowenthal of California.
    Mr. Lowenthal. Thank you, Mr. Chair.
    I have one statement. I would like to, before I ask any 
questions, echo the chair's comments. I recently visited Taiwan 
and met with many government officials and found it very, very 
educational. And I, too, believe very strongly that the State 
Department and the government should understand the importance 
of Taiwan being part of the TPP. And I think that should be a 
message back, before I ask a question, that many of us, I 
think, really strongly believe in and that we should do 
whatever we can to encourage that development.
    When I was there, I was very impressed with the cross-
Strait dialogue that was going on between Taiwan and the 
People's Republic of China. And I would like to know, what is 
the State Department or our involvement in that dialogue 
between Taiwan? How can we be helpful in promoting engagement 
between Taiwan and China?
    It seemed to me that President Ma was very proud of the 
agreements that already had been made, especially the trade 
agreements, the increased tourism that was going on, the 
increased flights that were going between mainland China. I 
would like to know what our involvement in that has been?
    And the second question is, what is your perspective on the 
current and forthcoming political situation in Taiwan, 
including the 2016 Presidential election in which President Ma 
will be termed out? How will that affect cross-Strait 
relationships? And will that be one of the defining 
characteristics in terms of that election?
    Mr. Moy. Thank you very much.
    In terms of the cross-Strait dialogue, we don't play a 
direct role, of course. I mean, they have had direct talks. In 
fact, the dialogue that I was referring to between Wang Yu-chi 
and Zhang Zhijun was really the first time in 60 years that 
they have had such a discussion.
    What we have done, however, is I think we have given Taiwan 
a great deal of confidence through our policies, through our 
direct assistance, and that has enabled them to, I think, have 
more engagement across the Strait. And we believe that more 
engagement, especially if it is at a pace that is consistent 
with the aspirations of the people on Taiwan, the people on 
both sides of the Strait, we would very much support that, 
because we think that it creates a more stable and peaceful 
environment. But it does have to come at the pace that the 
people on Taiwan feel comfortable with.
    In terms of the upcoming election, I mean, we don't really, 
sort of, speculate on how that is going to affect cross-Strait 
relations. But it is a good time to highlight how supportive we 
have been and still are of the thriving democracy that exists 
on Taiwan. It is really remarkable. I mean, just personally, 
the first time I went to Taiwan was in 1978. You just cannot 
imagine the change that has taken place there.
    And, Mr. Chairman, when you go to Taiwan, it just 
highlights the kind of values they share with us. And you know 
very well that it is this very, kind of, energetic kind of 
democracy that exists there.
    And so I won't speculate on--you know, we don't get 
involved in their, sort of, domestic politics and how that is 
going to play out in terms of their foreign policy in the 
future or their cross-Strait policy. But it is really a good 
time to celebrate what is a remarkable story in Asia, the 
democracy that exists in Taiwan.
    Mr. Lowenthal. Thank you.
    And I yield back my time.
    Chairman Royce. Thank you.
    We now go to Steve Chabot of Ohio, the chairman of the Asia 
Subcommittee.
    Mr. Chabot. Thank you very much, Mr. Chairman.
    I would like to personally thank Mr. Sherman for raising 
the issue of President Chen, which he did strongly when we were 
on the codel recently in Taiwan.
    And prior to that trip, I had been there about a year ago 
with another of my Democratic colleagues, the ranking member of 
the Asia and the Pacific Subcommittee, Eni Faleomavaega. And on 
that particular codel, Eni and I went down to the prison where 
President Chen is being held. And he has been there going on 5 
years now.
    And you are correct, there was a conviction for corruption 
charges. We understand that completely. There are a whole lot 
of aspects of that which we could discuss in great detail. For 
example, there is an argument that there was a judge that was 
more favorable to him who was replaced by a judge less 
favorable. There are all kinds of stories you hear, and I don't 
want to go into all the details about that.
    But the fact is he has been in prison now for going on 5 
years. And I have read the medical reports, I have talked to 
the doctors that have examined him, I have seen him with my own 
eyes. I met with him many times when he was President of 
Taiwan. He is the second democratically elected President and 
served for 8 years. And I think Mr. Sherman is absolutely right 
when he says that there is something wrong when one 
administration comes in and, you know, a previous 
administration is imprisoned. Something is not right.
    And, you know, I have seen, again, with my own eyes, the 
man has Parkinson's. He shakes, you know, almost constantly. He 
has cardiovascular problems, deep depression, a whole range of 
things. And we have talked to President Ma and others about it. 
And I believe that medical parole, as Mr. Sherman mentioned, is 
the logical conclusion here as to what ought to be done.
    Does the administration have a position on granting 
President Chen medical parole? We are not saying that he would 
be free, but at least could go home to his family with whatever 
years he has left.
    Mr. Moy. Sure. And thank you, Congressman, for raising that 
issue again.
    As I noted earlier, we have confidence in the fairness, 
impartiality, and transparency of Taiwan's judicial system. And 
we have made clear to Taiwan our expectation that procedures 
governing the terms of Chen Shui-bian's imprisonment and access 
to health care will be transparent, fair, and impartial.
    And so, you know, if there are occasions--and this is just, 
I think, a general statement from the U.S. Government--when 
there are cases when there are such health concerns, we would 
certainly, you know, make note of that to, in this case, the 
Taiwan authorities but to other governments, as well, when 
there may be some humanitarian considerations that could be 
made.
    But, certainly, we believe that the original case was tried 
in----
    Mr. Chabot. Well, I am not talking about the original case. 
I am talking about now--and that was an excellent answer, but 
my question is, does the administration have a position on 
medical parole?
    Mr. Moy. Well----
    Mr. Chabot. Is there a position? I mean, you have said that 
he ought to be treated humanely in prison. We are saying he 
shouldn't be in prison at this time. He has been in prison; he 
is there now. We are saying that medical parole at this point 
should be granted.
    Mr. Moy. Yeah. What I think that what we have done and what 
we----
    Mr. Chabot. I am just asking, do you have a position on 
that? Should he be granted--if you don't have one, that is 
okay, but I just would like to know.
    Mr. Moy. Yeah, I don't think that we take a position on 
that----
    Mr. Chabot. Okay. Thank you. That was my question. All 
right.
    And I will ask you another position, if you have this. The 
President, the Vice President, the Defense Minister, and 
Foreign Minister can't come to Washington, DC. If we want to 
meet with them, we have to go to San Francisco or Baltimore or 
somewhere. They are not allowed to come to the capital of the 
United States, which I think is a travesty for an ally, close 
ally, of the United States.
    We have introduced legislation innumerable times to dump 
that policy, which I think is unfair to Taiwan. Does the 
administration have a position on that?
    Mr. Moy. Well, we continue to have our, you know, ``one 
China'' policy that is set forth in the three joint 
communiques----
    Mr. Chabot. I am aware of that. Do you have a position on 
whether they should be able to come here----
    Mr. Moy. Our position is, yeah, in terms of the travel of 
Taiwan authorities, that is consistent with those policies--our 
``one China'' policy.
    Mr. Chabot. So you believe we should continue--the 
President, the Vice President, the Foreign Minister, and 
Defense Minister, they should not be allowed to come to 
Washington, DC?
    Mr. Moy. I think our policy has been very consistent over a 
number of----
    Mr. Chabot. I am asking for a ``yes'' or ``no,'' really.
    Mr. Moy [continuing]. Administrations, and I believe it 
will continue.
    Mr. Chabot. So you are saying that they should not be 
allowed to come here, continue with that policy. We are saying 
we should change that policy; you say stick with it.
    Mr. Moy. I say that our policy has been consistent and, I 
believe, will be consistent in the future.
    Mr. Chabot. Thank you.
    Chairman Royce. I am going to just announce to the 
committee here, we will go to a couple more speakers, but then 
we are going to recess for about 25 minutes for two votes and 
then come right back so that the junior members will then be 
able to ask their questions.
    And with that said, let's go to Mr. Gerry Connolly of 
Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. And I look forward 
to the questions of the junior members of the committee.
    I do want to compliment Mr. Engel for being sartorially 
correct today. He is resplendent in green and shamrocks. And as 
an Irish-American member of this committee, I deeply appreciate 
it.
    Mr. Moy, briefly, what, in your opinion, or the 
administration's opinion, does the Taiwan Relations Act commit 
the United States to do with respect to the military 
relationship with Taiwan?
    Mr. Moy. Well, as I noted earlier, we are obligated to make 
available to Taiwan defense articles and defense services that 
are necessary to enable Taiwan to maintain a sufficient self-
defense capability.
    It is an obligation that we don't shirk. These obligations 
are under--not the obligations are under constant review, but 
the needs of Taiwan are under constant review.
    Mr. Connolly. Okay. Good. I would agree with you.
    Would you also agree that something Beijing does understand 
is that big stick of Teddy Roosevelt's? We can talk softly, but 
they have to know we also carry a big stick, that we mean it, 
that we will keep our commitments, and that whatever happens 
ultimately in the Taiwan Strait will happen peacefully, it is 
not going to happen by military force, and the United States is 
prepared to make sure that it doesn't happen by military force.
    Do you think, especially in light of Chinese behavior in 
various and sundry islands throughout the Pacific Rim, that 
that message is maybe more important than ever from the United 
States with respect to Taiwan?
    Mr. Moy. Well, I don't think--as I noted earlier, I don't 
think that the PRC doubts our resolve, our continued positive 
presence in the East Asia-Pacific region.
    Mr. Connolly. Really? With respect to Taiwan?
    Mr. Moy. I think absolutely with respect to Taiwan.
    Mr. Connolly. Oh. All right. So, gee, the United States in 
2001 tentatively agreed to sell diesel submarines to Taiwan. 
Thirteen years later, where are we in that submarine sale?
    Mr. Moy. Well, I think as you know, we continue to review 
the defense needs, and we make decisions that are appropriate--
--
    Mr. Connolly. Mr. Moy, have we sold a single one of those 
diesel submarines to Taiwan 13 years later?
    Mr. Moy. I am not aware of that, sir.
    Mr. Connolly. No. And did, by any chance, did Beijing 
object to that sale?
    Mr. Moy. We don't discuss arms sales or defense----
    Mr. Connolly. Did they express themselves publicly or 
privately through any channels that you are aware of?
    Mr. Moy. I am not aware of----
    Mr. Connolly. So what would be the hang-up? Why not sell 
the diesels, then?
    Mr. Moy. Again, we make decisions not with the People's 
Republic of China in mind; we make those decisions based on 
what we feel are our needs.
    Mr. Connolly. Oh. So the decision tentatively to sell 
submarines to Taiwan in 2001 is still under consideration as to 
whether it really meets your definition of appropriate defense 
for Taiwan?
    Mr. Moy. There are a range of systems, there are a range of 
different packages that we constantly----
    Mr. Connolly. What about F-16s? The Congress has repeatedly 
said the sale of 66 F-16s makes sense to us. Is that also under 
review for whether it is an appropriate part of the defense of 
Taiwan?
    Mr. Moy. We made a determination that the F-16A/B retrofit 
was the most appropriate type of weapons system to sell to 
Taiwan, and we continue to believe that that is the case.
    Mr. Connolly. And what about military exercises? Any 
consideration to maybe including Taiwan, for example, in 
RIMPAC?
    Mr. Moy. Well, we always, you know, consider--and this is 
our policy worldwide. We are always considering, you know, 
different participants. I am not aware of such consideration, 
but I think my colleagues in the Defense Department can better 
address that.
    Mr. Connolly. I just--you know, we don't want to ever be 
provocative, but we need to stand by our alliances. We want a 
good and productive relationship, it seems to me, with the 
People's Republic of China. But I also know from history that 
Beijing respects strength. Peace through strength.
    And our commitment to Taiwan is an extraordinary test case, 
and it seems to me that we have to follow through on our 
commitments with respect to Taiwan. Beijing doesn't have to 
like it, but it will have to respect it.
    With that, I yield back.
    Chairman Royce. Thank you.
    We are going to go to Mr. Randy Weber of Texas.
    Mr. Weber. Thank you.
    Mr. Moy, I am going to follow up on some of Mr. Connolly's 
comments about actually selling or being concerned about 
Taiwan's defense capability, I guess.
    You said earlier, I think with Chairman Chris Smith's 
questioning, that when you make decisions, you all don't 
consider Beijing in your decisions. And you just reaffirmed 
that with my colleague, Mr. Connolly.
    I think Chris Smith raised the issue of a ``one China'' 
policy. Does it not bother you that that exists? That there are 
statements that people have made, high-level officials that 
have said they agree to a ``one China'' policy? Does the 
administration not view that as a problem?
    Mr. Moy. Our ``one China'' policy is one that has existed 
for, you know, several decades now.
    Mr. Weber. Okay. Well, let me----
    Mr. Moy. Several administrations----
    Mr. Weber. I take that as a ``no.'' But let me follow up 
with what Gerry Connolly said. So you haven't sold submarines 
yet. You don't take Beijing into account. People around the 
world watch us; words and actions have consequences.
    Would you agree that you all would be okay with a ``one 
Russia'' policy when it comes to Crimea and the Ukraine? Is 
that akin to the same kind of ideology?
    Mr. Moy. Well, I can't speak to those issues. But, again, 
we are obligated to provide those defense materials and 
services to Taiwan. And we have been through several 
administrations, I think, very vigilant in terms of providing 
that.
    Mr. Weber. But in view of recent events, wouldn't you agree 
that the administration ought to be thinking about revamping 
its policy, that perhaps we would want to get in gear? And I 
forget the exact date of the sale of diesel submarines; I think 
Mr. Connolly said 2001. That is 13 years. Has the world changed 
in 13 years?
    Mr. Moy. In what sense, sir?
    Mr. Weber. Well, how about in your view of the imminent 
danger of, perhaps, mainland China trying to, whatever you want 
to call it, take back over Taiwan?
    I mean, we have said that they are our close friend and our 
ally. The fact that their officials cannot come to Washington, 
DC, is a problem. Events around the world should indicate that 
now, more than ever, we need a stronger relationship with 
Taiwan.
    Does the administration understand the seriousness, 
especially in light of recent events--Russia, Ukraine, Crimea, 
I mean, you can go right down the list. Things aren't getting 
any better. So is there a possibility you all might step up the 
program to sell those defense weapons to Taiwan?
    Mr. Moy. Right. I mean, those----
    Mr. Weber. I mean, maybe before the next 14, 13 years?
    Mr. Moy. Thank you, sir.
    Those--as I noted, they are under constant review.
    I take your point about the world changing and having to 
adjust to those changes. Remarkably, as I noted earlier, there 
is more dialogue between Taipei and Beijing than there ever has 
been before.
    Mr. Weber. Okay. Well, let me ask you this.
    Mr. Moy. There are agreements that have been----
    Mr. Weber. I am running out of time.
    Mr. Moy. Yeah. Okay, please.
    Mr. Weber. So there are going to be some exercises over in 
Hawaii. Beijing was invited; Taiwan was not. Why?
    Mr. Moy. I think that our policy in terms of, you know, 
strengthening military-to-military relations with Beijing are 
fairly apparent. I can, of course, defer to my colleagues in 
the Defense Department to comment on the status of those 
relations.
    But, I think, as part of our, you know, rebalance, our 
consideration of making or of strengthening the stability and 
peace in East Asia, I think this is a good idea.
    Mr. Weber. Okay. Obviously, because they weren't invited.
    But does it strike you as odd that Beijing is not near as 
concerned about what we are doing as it seems--and words and 
actions have consequences. Witness Russia's recent invasion of 
Crimea into the Ukraine, so to speak.
    Does it not strike you as odd that we seem a lot more 
worried about Beijing than they do about us? Do you all take 
into that account?
    Mr. Moy. I don't think that we balance our concerns about--
we don't think about it----
    Mr. Weber. Well, that is obvious.
    Mr. Moy. Yeah. But what I can tell you is that I think it 
is a very smart thing to expand our relations with all 
countries in East Asia. And I don't think that any of this 
comes at the expense of Taiwan. And I think that our relations 
with Taiwan have been extremely strong, and we continue to 
strengthen those relations.
    Mr. Weber. Mr. Chairman, I yield back.
    Chairman Royce. Thank you, Mr. Weber.
    Thank you, Mr. Moy.
    Now we have just enough time to get to this vote. We stand 
in recess. We will reconvene in approximately 25 minutes.
    Thank you, Mr. Moy.
    [Recess.]
    Chairman Royce. I am going to reconvene the committee at 
this time and again express my appreciation to Mr. Moy for his 
testimony here today.
    And we are going to go to Mr. Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Moy, I appreciate your presence here.
    I feel like I can't get a whole lot of straight answers, so 
I would like to go to some kind of yes-and-no format, if I 
could, because it seems to be a lot of time just kind of 
discussing the fact that the administration is interested in 
talking about or considering or whatever.
    Regarding the force buildup, the PLA force buildup, U.S. 
Analysts assessed that the primary driver of the PLA's force 
buildup is preparation for conflict over Taiwan status, 
including contingencies for possible U.S. intervention. That is 
U.S. analysts.
    So the question is, is this still the assessment of the 
executive branch? Briefly.
    Mr. Moy. I am not a spokesperson for our colleagues in 
Defense----
    Mr. Perry. Well, but I am talking about the executive 
branch. I mean, is this your assessment? It is just ``yes'' or 
``no,'' ``I don't know.'' How about that?
    Mr. Moy. Well, I mean, of course, we would stand by 
assessments that have been made. So, certainly----
    Mr. Perry. So the answer is essentially yes, essentially?
    Mr. Moy. We stand by reports that we do.
    Mr. Perry. Okay. So do you know if Taiwan shares the same 
assessment?
    Mr. Moy. You know, Taiwan certainly has taken many 
precautions in its, you know, defense posture. I think that it 
is best to ask them that question. But, certainly, there is 
discussion that goes on about this sort of thing, and I would 
imagine that----
    Mr. Perry. But you don't really know. I mean----
    Mr. Moy. Well, I can't speak for Taiwan.
    Mr. Perry. I understand, but in the discussions that the 
administration has had, you don't know what their position is. 
If that is how they are posturing their forces and their 
strategy based on that assessment, you don't know.
    Mr. Moy. Is your question whether Taiwan believes it or 
whether----
    Mr. Perry. Yes.
    Mr. Moy [continuing]. The administration----
    Mr. Perry. Do they share the assessment? Do they share the 
United States' assessment that that is the reason for the 
buildup?
    Mr. Moy. Again, I think that you would have to ask them.
    Mr. Perry. Okay.
    Regarding Taiwan membership in TPP, the administration's 
position, for or against? It is important for us to know.
    Mr. Moy. We welcome their interest. And I don't think the 
conversations have gone so far as to be, you know, pro or con. 
We are a long way away from that. But we welcome their 
interest----
    Mr. Perry. I am sure we do. But so you are saying that the 
administration hasn't decided yet. You are happy for their 
interest, but you don't know.
    Mr. Moy. No, the issue hasn't come up to that point yet.
    Mr. Perry. The issue hasn't been brought up? Or it isn't to 
a point where you can decide ``yes'' or ``no''?
    Mr. Moy. It hasn't come up to the point. Certainly, we know 
that Taiwan has expressed an interest, and, as I noted earlier, 
we are welcoming that interest.
    But, you know, we are a long way away from discussing that. 
We have other discussions that we are having on Taiwan's 
economic policies, and we are certainly engaged in those, and 
we want to continue warming our economic and trade relations 
with Taiwan.
    Mr. Perry. All right.
    Regarding the PRC's Air Defense Identification Zone, the 
ADIZ, what have been concerns in Taiwan's response to the PRC's 
ADIZ announced in November 2013?
    Mr. Moy. I am sorry, what do you mean by ``concerns''?
    Mr. Perry. The administration's concerns. Do you have any? 
Are you in agreement?
    Mr. Moy. Well, I think what is important here is President 
Ma has gone on record as expressing concern. What he has said 
in public and what is encouraging is that he wants a peaceful, 
sort of, stable environment in the region, that if there are 
disagreements, they should be resolved through a dialogue and--
--
    Mr. Perry. Let me stop you there, if I could, because I 
just have a little bit of time left.
    Do you know what our response would be if there were an Air 
Force or Navy intercept in the ADIZ? If the PLA had an 
intercept of Taiwanese aircraft or marine vessels in that area 
and there was some incursion, what would our response be?
    Mr. Moy. Yeah, I am not going to get into any, sort of, 
speculation on, kind of, a hypothetical situation. But we have 
gone on record, in response to the announcement of this ADIZ, 
as not accepting it. And so, again, I don't want to speculate 
on any kind of----
    Mr. Perry. All right.
    Thank you, Mr. Chairman.
    Mr. Moy [continuing]. Possibilities in the future.
    Chairman Royce. Thank you, Mr. Perry.
    And thank you, Mr. Moy. Thanks for being here before our 
committee today.
    And, as you can see, there is tremendous bipartisan support 
for Taiwan. It is my sincere hope that the administration will 
take a more proactive stance on Taiwan, including working with 
Taiwan so that it can join the Trans-Pacific Partnership.
    The Asia-Pacific region is going to witness significant 
economic growth in the next 10 years. And positioning the 
United States--we are, after all, on the Pacific Rim--to take 
advantage of this opportunity is a task that we take very 
seriously on this committee. And as chairman of this committee, 
I have made the Asia-Pacific region a top priority. So I look 
forward to working closely with the administration on this and 
other issues.
    And I thank you.
    And the hearing is adjourned.
    [Whereupon, at 11:31 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                 Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
